App 1
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
No. 18-2187
On Appeal from the United States District Court for the
District of New Jersey
(D.C. Civil Action No. l:15-cv-08324)
District Judge: Honorable Robert B. Kugler
Submitted Pursuant to Third Circuit L.A.R. 34.1(a) July
19, 2019
Before: KRAUSE, SCIRICA and
NYGAARD, Circuit Judges
(Opinion filed: August 1, 2019)
PER CURIAM
In 2015, Chris Ann Jaye filed a complaint against
numerous individuals and businesses, alleging that they
violated her rights in connection with several state court
cases. Those state cases involve a dispute between Jaye
* This disposition is not an opinion of the fid] Court and
pursuant to I.O.P. 5.7 does not constitute binding precedent,
and her condominium association regarding unpaid
assessments and fees.

'\

t

App 2
Various defendants moved to dismiss the complaint,
arguing, inter alia, that the District Court lacked
jurisdiction under the Rooker-Feldm an doctrine and the
doctrine of res judicata, that Jaye failed to state a claim
for the federal causes of action, that the applicable
statutes of limitations had expired, and that Jaye had
signed a stipulation of dismissal in state court that
precluded the federal suit. By order entered November
30, 2016, the District Court granted the moving
defendants’ motions and dismissed all claims against all
parties. Jaye sought reconsideration, but the District
Court denied relief. Jaye timely appealed, and we
affirmed. Jaye v. Oak Knoll Vill. Condo. Owners Ass’n.
751 F. App’x 293, 300 (3d Cir. 2018) (not precedential).
Meanwhile, Jaye filed in the District Court
various post-judgment motions. As relevant here, she
moved to vacate an order that denied her motion
reconsideration, her prior motions to vacate, and her
motion for sanctions. (Dist. Ct. Doc. No. 367). She also
filed a motion to consolidate the case with other District
Court actions. (Dist. Ct. Doc. No. 384). Finally, she
moved to correct the record and vacate the District
Court’s judgment of November 30, 2016. (Dist. Ct. Doc.
No. 385). The District Court denied those motions by
order entered May 18, 2018. (Dist. Ct. Doc. No. 397).

App 3
Jaye filed a timely notice of appeal.1 (Dist. Ct. Doc. No.
398).
We have jurisdiction pursuant to 28 U.S.C. §
1291, see Isidor Paiewonskv Assocs., Inc, v. Sharp
Props.. Inc.. 998 F.2d 145, 149-50 (3d Cir. 1993) (post­
judgment orders are final and immediately appealable),
and review the denial of Jaye’s post- judgment motions
for abuse of discretion. See Budget Blinds. Inc, v. White.
536 F.3d 244, 251 (3d Cir. 2008) (Rule 60(b)
motions); Lehman Bros. Holdings v. Gateway Funding
Diversified Mortg. Servs.. L.P.. 785 F.3d 96, 102 (3d Cir.
2015) (motions to consolidate). We may affirm on any
basis supported by the record. See Fairview Twp. v.
EPA. 773 F.2d 517, 525 n.15 (3d Cir. 1985).
The District Court properly denied Jaye’s motions. In
her motion to vacate, (Dist. Ct. Doc. No. 367), Jaye
alleged that the District Court improperly “transformed’’
three “valid, timely post-judgment motions[,]” (Dist. Ct.
Doc. Nos. 312, 329, & 347),

1 Although Jaye’s notice of appeal identified numerous orders
entered by the District Court prior to her earlier appeal, the
notice of appeal is timely as to only the order entered May 18,
2018.
3

App 4

into untimely motions under Local Civil Rule
7.1(i). See Rule 7.1(i) (providing that,
“[ujnless otherwise provided by statute or rule . . ., a
motion for reconsideration shall be served and filed
within 14 days after the entry of the order or judgment.
..
But even if the District Court had treated Jaye’s
post-judgment motions as timely brought under Federal
Rule of Civil Procedure 60(b), as Jaye contends it should
have, she would not have been entitled to relief. A Rule
60(b) motion “may not be used as a substitute for an
appeal, and . . . legal error, without more does not
warrant relief under that provision.” United States v.
Fiorelli. 337 F.3d 282, 288 (3d Cir. 2003). In her post­
judgment motions, Jaye simply alleged legal error in
orders entered prior to the appeal that resulted in our
decision affirming the dismissal of her complaint.
Because Jaye could have raised (and in some instances
did raise) on appeal her arguments challenging the
entry of the orders, relief was unavailable under Rule
60(b). See Martinez-McBean v. Gov’t, of V.I..
562 F.2d 908, 911-12 (3d Cir. 1977). Jaye’s motion to
vacate also sought to challenge the District Court’s
denial of her motion for sanctions. The District Court’s
denial of the motion for sanctions was proper, however.
In that motion, (Dist. Ct. Doc. No. 330), Jaye repeated
her allegation that some of the defendants had made
false representations in their submissions to the District

App 5
Court. But a Magistrate Judge had earlier concluded
that those allegations were meritless, (Dist. Ct. Doc. No.
261), and Jaye’s motion for sanctions offered no basis
upon which to revisit that determination. Accordingly,
the District Court correctly denied Jaye’s motion to
vacate.
Furthermore, the District Court did not abuse its
discretion in determining that consolidation of Jaye’s
District Court cases would be neither convenient nor
economical “at this late date.” Jaye filed a motion to
consolidate the underlying action with three other cases
that she had filed in the District of New Jersey. Notably,
however, when Jaye filed the consolidation motion on
April 6, 2018, judgments already had been entered in all
the cases. Furthermore, in large part, those cases
involved different parties.2 In addition, Jaye’s motion
failed to explain what common questions of law or fact
the cases shared. See Fed. R. Civ. P. 42(a).
9

“ The underlying complaint named various individuals and
businesses as defendants, and, while there was some overlap,
the actions that Jaye sought to consolidate with that
complaint were brought primarily against federal and state
court judges, court staff, and the New Jersey Attorney
General. Jave v. NJ Attorney Gen. John Hoffman. D.N.J. Civ.
No. l:14-cv-07471: Jave v. Hoffman. D.N.J. Civ. No. 1:16cv-07771; Jave v. Fed. Judge Michael Shipp. D.N.J. Civ. No.
l:17-cv-05257.

App 6
Under these circumstances, we agree that judicial
economy would not have been served by consolidating
Jaye’s cases.
Finally, the District Court properly denied Jaye’s
motion to correct the record and to vacate the District
Court’s judgment of November 30, 2016. The District
Court denied relief because, under Federal Rule of Civil
Procedure 60(b), the motion was not filed within “a
reasonable time” of the submissions and orders that she
sought to challenge. Even if the motion were timely,
however, we conclude that it lacked merit. With respect
to the request to vacate, we have already affirmed the
judgment entered by the District Court on November 30,
2016. See Jaye, 751 F. App’x at 300. In addition, Jaye
failed to adequately support her assertions that certain
defendants misled the District Court, that the District
Court Clerk failed to enter a default against some of the
defendants, that the District Court failed to adjudicate
all her prior motions, and that the Judge Shipp was
biased and had “a known conflict.”
For the foregoing reasons, we will affirm the judgment
of the District Court.
3 Jaye has filed in this Court numerous motions and letters,
including requests for an injunction, to correct the record,

App 7
and to suspend or disbar one of the appellees. After careful
consideration of those requests, they are denied. We also deny
the motions filed by appellees for sum mary action. The
appellees’ motions for sanctions and to preclude Jaye from
filing further documents in the appeal are addressed in a
separate order.

App 8
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
C.A. No. 18-2187
CHRIS ANN JAYE, Appellant VS.
OAK KNOLL VILLAGE CONDOMINIUM OWNERS
ASSOCIATION INC, ET AL. (D.N.J. Civ. No. l:15-cv08324)
Present: KRAUSE, SCIRICA and
NYGAARD, Circuit Judges
ORDER
Upon consideration of the Appellees’ motions for
sanctions and motion to preclude Appellant Chris Ann
Jaye from filing further documents in this appeal, and
Jaye’s responses thereto, the Appellees’ motions are
granted.
Jaye has filed in state and federal court numerous
complaints and appeals, all of which pertain to a dispute
between her and her condominium association regarding
unpaid assessments and fees. Because of her repetitive
and frivolous filings in the United States District Court
for the District of New Jersey, that court has (1) directed
that the defendants need not respond to Jaye’s motions
unless ordered to do so, see Jave v.

App 9
Hoffman. D.N.J. Civ. No. l:14-cv-07471 (order entered
May 18, 2018); Jave v. Hoffman.
D.N.J. Civ. No. l:16-cv-07771 (order entered Apr. 9,
2018); (2) warned Jaye that “false statements and
reckless accusations of misconduct against Defendants
in the face of clear evidence to the contrary are potential
grounds for sanctions against Plaintiff,” Jave v. Oak
Knoll Vill. Condo. Owners Ass’n. Civ. No. l:15-cv-08324,
2016 WL 7013468, at *6 n.ll (D.N.J. Nov. 30, 2016); and
(3) prohibited Jaye, when proceeding pro se, from filing
lawsuits “relating to disputes concerning the payment of
her condominium fees, or foreclosure proceedings, or any
perceived conspiracies emanating out of them, Jave v.
Shinn. D.N.J. Civ. No. l:17-cv-05257 (order entered May
18, 2018).
We, too, have warned Jaye that duplicative or frivolous
motions may result in sanctions. See Jave v. AttV GenNew Jersey. C.A. No. 16-2641 (order entered Sept. 22,
2016); Jave v. Oak Knoll Vill. Condo. Assoc.. C.A. No.
18-2187 (order entered Aug. 2, 2018); Jave v. Oak Knoll
Vill. Condo. Assoc.. C.A. No. 17-2564, 751 F. App’x 293,
300 (Sept. 13, 2018). In the case at bar, C.A. No. 182187, we advised Jaye that if “she continues to make
disparaging remarks against opposing parties, counsel,
or judges or allegations of criminal behavior or other
wrongdoing by persons involved in the litigation that

App 10
are not supported by clear evidence, she will be subject
to sanctions, including monetary fines.” (order entered
Aug. 2, 2018).
Despite that warning, Jaye has continued her baseless
attacks against opposing counsel, accusing him of
criminal conduct, using profanity to make her points,
and threatening him by referencing his children by
name. For instance, in an email sent to opposing counsel
after he moved for sanctions, Jaye calls him a “complete
and total illegal, criminal ass,” a “shyster,” and a “piece
of shit, scumbag lawyer.” She also accuses him of
“pull[ing] this shit in the prior case,” of using “teenybopper tactics,” and of “trying to hide your illegal and
criminal acts behind these monstrous filings whereby
you cry and bemoan my conduct as a basis for relief in
the law.” Jaye further states that “if there is any justice,
the world will come crashing down on YOU ...” and she
“hopes [that his children, who Jaye names] are in the
prime of their life to see you dragged out in handcuffs
when it does!” Notice of Mot. (filed Nov. 27, 2018).
Moreover, in a submission opposing the appellees’
motion for sanctions, Jay accuses opposing counsel of
“illegal conduct,” calling him, inter alia, a “thief,”
“embezzler,” “extortionist,” “shyster,” and “conman.”
Opp’n, p. 2 (filed on Dec. 7, 2018). Jaye also claims that
he “committed perjury and obstructed justice.” Id. at 5.

App 11
Jaye further claims that he is a “a liar and a perjurer”
who “uses his law license to steal.” Mot. to Suspend or
Disbar, p. 3, 8 (filed on Dec. 7, 2018); see also Letter Br.,
p. 4 (filed on Jan. 16, 2019). But she offers no specific
evidence in support of those allegations, which appear
baseless, vindictive, and abusive.
Jaye also has sustained her attacks on state and federal
judges and clerks. For example, in the motion that she
filed on November 16, 2018, Jaye complained of “the
obvious fraud by yet another judge (Judge Kugler).” In
that motion, Jaye further claimed that “the court and its
staff have rigged the filings in order to rig the
outcomes.” Moreover, Jaye has alleged that “judges and
clerks alike have ensured my rights have been violated
... [a]nd they have proceeded on this time-wasting
venture of fraud, lies and deception to rig the outcome
as advocates for the defendants.” Letter Br., p. 3 (filed
on Jan. 16, 2019). More recently, Jaye stated that judges
of this Court “sit back on your useless, corrupt asses and
refuse to rule to undo any of the illegal acts you have
done ...” Letter, p. 2 (filed on May 22, 2019). She also
personally attacks District Court judges, calling Judge
Shipp an “idiot” and “filth,” and Judge Kugler
“scum.” Iff at p. 3.

App 12
Based on Jaye’s failure to adhere to our prior
admonitions, and her continued, unwarranted attacks
on opposing counsel, judges, and court staff, we impose
on Jaye a monetary fine of $1000, payable
immediately. See Coghlan v. Starkey. 852 F.2d 806,
808, 817 (5th Cir. 1988) (noting that courts of appeals
have authority to impose sanctions). The Clerk is
instructed to not accept any further filings from Jaye
until the fine is paid in full. After the fine is fully paid,
Jaye may file only one petition for rehearing in this
appeal. We also direct the Clerk not to accept for filing
in this case any other documents from her. See In re
Oliver. 682 F.2d 443, 445 (3d Cir. 1982) (recognizing
power to issue orders to restrict the filing of meritless
pleadings under the All Writs Act, 28 U.S.C. § 1651(a)).
Finally, given the abusive and frivolous nature of Jaye’s
submissions, the appellees need not file any responsive
documents in any future appeal filed by Jaye unless
specifically directed to do so by the Court.
By the Court,
s/ Richard L. Nvgaard Circuit Judge

App 13
DLD-253 June 28, 2018
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
C.A. No. 18-2187
CHRIS ANN JAYE, Appellant VS.
OAK KNOLL VILLAGE CONDOMINIUM OWNERS
ASSOCIATION INC, ET AL. (D.N.J. Civ. No. 1-15-cv08324)
Present: JORDAN, SHWARTZ and
KRAUSE, Circuit Judges
Submitted is Appellant’s ‘“Motion to REMAND and
Notice to Chief Justice of Misfiling” in the abovecaptioned case.
Respectfully, Clerk
ORDER
To the extent that Appellant’s “Motion to
REMAND and Notice to Chief Justice of Misfiling” seeks
to consolidate this appeal with the pending appeal at
C.A. No. 17- 2564, her request is denied. If Appellant
wishes to proceed with this appeal, she must pay the full
applicable filing and docketing fees in the amount of
$505 to the District Court within fourteen (14) days of

App 14

the date of this order. Failure to pay the filing fees
within that time will result in dismissal of the appeal
without further notice. See 3d Cir. LAR 107.1(a). To the
extent that Appellant’s “Motion to REMAND” seeks any
other relief, the Clerk shall refer it to the merits panel
once the fees are paid. We note that several parties have
filed other motions; these motions will also be submitted
to the merits panel at the appropriate time. No further
filings from any of the parties are needed at this time.
The Court notes with significant concern that Ms.
Jaye has filed numerous repetitive and frivolous
motions in her appeals. A number of these filings make
accusations of criminal behavior and other wrongdoing
by opposing parties, opposing counsel, as wrell as the
state and federal judges who have been assigned to her
cases. Ms. Jaye makes these allegations without any
evidentiary basis. Moreover, many filings contain
disparaging remarks about those persons. The Court
does not countenance such character attacks. Such
behavior taxes the Court’s resources, unnecessarily
delays resolution of appeals, and will not be tolerated.
Accordingly, the Clerk is hereby directed to
immediately terminate Ms. Jaye’s electronic filing
privileges pursuant to 3d Cir. LAR 113.2(d). Ms. Jaye
must send all filings to the Court by mail. The Clerk wifi

App 15
review the filings. No action will be taken on any motion
that seeks the same relief that has already been
requested in any of Ms. Jaye’s appeals. Ms. Jaye is
further advised that if she continues to submit repetitive
and frivolous documents to the Court, the Court will
issue an order to show cause why Ms. Jaye should not be
enjoined from fifing. Finally, Ms. Jaye is directed to use
caution in drafting any future submission to this Court.
If she continues to make disparaging remarks against
opposing parties, counsel, or judges or allegations of
criminal behavior or other wrongdoing by persons
involved in the litigation that are not supported by clear
evidence, she will be subject to sanctions, including
monetary fines.
By the Court,
s/ Cheryl Ann Krause
Circuit Judge

App 16
Case: 18-2187 Document: 003113110332 Page: 1 Date
Filed: 12/14/2018
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
No. 18-2187
Jaye v. Oak Knoll Village Condominium Owners
Association, Inc.
To: Clerk
1.
Motion by Appellees Brown Moskowitz &
Kallendef and Steven R. Rowland for Sanctions
2.

Supplemental Motion by Appellees Brown
Moskowitz & Kallendef and Steven R. Rowland for
Sanctions
The foregoing motions, and any response thereto, are
referred to the merits panel.
For the Court,
s/ Patricia S. Dodszuweit Clerk
Dated: December 14, 2018 CLW/cc: Ms. Chris Ann Jaye
ALL COUNEL OF RECORD

App 17
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF NEW JERSEY CAMDEN
VICINAGE

Chris Ann JAYE,
Plaintiff,
v.
OAK KNOLL VILLAGE
CONDOMINIUM OWNERS
ASSOCIATION, INC., et al,
Defendants.

: Civil No. 15-8324
(RBK/KMW)
ORDER

KUGLER, United States District Judge:
THIS MATTER having come before the Court upon
Plaintiff Chris Ann Jaye’s Motion to Vacate (ECF No.
367) the Court’s order denying reconsideration (ECF No.
363); Plaintiffs Motion to Consolidate this case with
similar proceedings in 14-7471, 16-7771, and 17-5257
(ECF No. 384); and Plaintiffs Motion to Correct Record
by Clerk and Vacate (ECF No. 385) the Court’s November
30, 2016 opinion (ECF No. 305);
FIRST, the Court notes that pursuant to Fed. R. Civ. P.
60(b)(1), (3), and (6), Plaintiff seeks to vacate this Court’s
prior order denying reconsideration, alleging mistake and
fraud;

App 18
THE COURT FINDING, however, that Plaintiff
appears to attribute the judgment to an unspecified
personal animus on the part of Judge Shipp, and has not
articulated a particularized basis for vacating the Court’s
previous order denying reconsideration;
SECOND, the Court notes that under Fed. R. Civ. P.
42(a), the Court may consolidate actions “to avoid
unnecessary cost or delay,” see Johnson v. Manhattan Ry.
Co., 289 U.S. 479, 496, 53 S. Ct. 721, 727-28, 77 L. Ed.
1331 (1933) (“consolidation is permitted as a matter of
convenience and economy in administration”);
THE COURT FINDING that at this late date it would
be neither convenient nor economical to consolidate these
cases;
THIRD, the Court notes that Plaintiffs “Motion to
Correct Record by Clerk and Vacate ECF 305 Entirely”
(ECF No. 385), which addresses ECF Nos. 72 100, 104,
136, 156, 208, 270, 305, 312, 316, and 363, was filed April
6, 2018, over two years after the earliest of the challenged
docket entries and thus not filed within “a reasonable
time” under Rule 60(c);
THE COURT ALSO NOTING that Plaintiffs motion
seeks “the vacating of any and all rulings granting any
relief to Defendant BSRJ” on the basis that they had been
in default, despite Defendant BSRJ having filed a letter
joining in the motion to dismiss of another party;

App 19

THE COURT FURTHER NOTING that Plaintiffs
motion once again raises the same allegations of Judge
Shipp’s fraud and personalized malice that the Court and
is essentially duplicative of her motion for
reconsideration (ECF No. 367), alleging that Judge Shipp
“had a clear bias towards me as one with full knowledge
that he was going to be sued by me”;
IT IS HEREBY ORDERED that Plaintiffs Motion to
Vacate (ECF No. 367) is DENIED;
IT IS FURTHER ORDERED that Plaintiffs Motion to
Consolidate (ECF No. 384) is DENIED; and
IT IS FURTHER ORDERED that Plaintiffs Motion to
Correct Record by Clerk and Vacate (ECF No. 385)
is DENIED; and
IT IS FURTHER ORDERED that Defendants in this
matter have no further obligation to respond to Plaintiff’s
submissions unless directed otherwise by the Court.
Dated: Mav 18. 2018
s/ Robert B. Kugler
ROBERT B. KUGLER
United States District Judge

